CERTIFICATE OF COMPLIANCE
Case No. 19-546
Caption: King v. Brownback
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 6, 123 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 31, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
August 31, 2020
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public

